September 2006
Report No. 06-024


Division of Supervision and Consumer
Protection’s Supervisory Actions Taken
for Compliance Violations
                                                                                                          Report No. 06-024
                                                                                                           September 2006

                                  Division of Supervision and Consumer Protection’s
                                  Supervisory Actions Taken for Compliance Violations
                                  Results of Audit

Background and                    DSC identified and reported 9,534 significant compliance violations during 2005. Of the
                                  1,945 financial institutions examined in 2005, 1,607 (83 percent) had been cited with
Purpose of Audit                  compliance violations deemed significant by the FDIC. Also, 837 (43 percent) of the
                                  1,945 financial institutions examined had repeat, significant violations, of which
The FDIC has supervisory          708 (85 percent) institutions were rated “1” or “2.”
responsibilities for ensuring
that the financial institutions   According to DSC officials, of the institutions examined in 2005, 96 percent were rated
it supervises comply with fair    “1” or “2,” indicating a strong or generally strong compliance position, while 4 percent
lending, privacy, and various     were rated “3,” “4” or “5,” indicating various levels of concern. DSC officials stated that
                                  the FDIC’s supervisory approach is to increase the level of attention as an institution’s
other consumer protection
                                  compliance position worsens, and during 2005, DSC downgraded 297 institutions’
laws and regulations. The         compliance ratings, issued 72 informal and 36 formal enforcement actions for compliance,
FDIC uses its compliance          and made 43 compliance referrals to the Department of Justice or other authorities.
examination process to
ascertain the effectiveness of    However, DSC had not adequately ensured that the financial institutions in our sample
an institution’s program for      had taken appropriate corrective actions for repeat, significant violations that had been
complying with consumer           cited during examinations. In many cases, consistent with the flexibility allowed by DSC
protection laws and               guidance for “1” or “2” rated institutions, DSC waited until the next examination to
regulations. The compliance       follow up on repeat, significant compliance violations that had been identified in multiple
examination and follow-up         examinations before taking supervisory action. Specifically, we found that:
supervisory attention to
                                      •    of the 51 reports of examination (ROE) we reviewed for 14 sampled institutions,
violations and other
                                           DSC had cited 431 significant violations related to 8 consumer protection laws
deficiencies help to ensure                and regulations;
that consumers and                    •    47 of the 51 ROEs reviewed identified significant compliance violations;
businesses obtain the benefits        •    5 of the 47 ROEs resulted in informal supervisory actions and prompted follow-
and protection afforded them               up activities, and 1 visitation for a new FDIC-supervised institution also
by law.                                    prompted follow-up activities, but DSC did not follow up on the remaining 41
                                           ROEs until the next examination;
The objective of our audit            •    11 of the 14 sampled institutions had repeat, significant violations; and
was to determine whether the          •    all 14 sampled institutions had deficiencies and weaknesses noted in their
FDIC’s Division of                         compliance management system (CMS) in at least 1 ROE. Also, DSC had
Supervision and Consumer                   identified serious deficiencies and weaknesses in some of the institutions’ CMSs
Protection (DSC) adequately                that remained uncorrected for extended periods.
addresses the violations and
                                  As a result of repeat, significant violations, consumers and businesses of the affected
deficiencies reported in          institutions may not obtain the benefits and protection afforded them by consumer
compliance examinations to        protection laws and regulations. We also identified certain other matters for DSC’s
ensure that FDIC-supervised       attention relating to (1) performance goals associated with supervisory actions taken for
institutions take appropriate     compliance violations and (2) consideration of an institution’s training program in
corrective action.                compliance ratings.

                                  Recommendations and Management Response
                                  The report makes three recommendations for DSC to strengthen its monitoring and
                                  follow-up processes by revising guidance on follow-up, considering supervisory action
                                  when an institution’s corrective action is not timely or when significant violations recur,
                                  and revising its performance goal. DSC’s management will reevaluate applicable
                                  guidance; analyze the prevalence and scope of repeatedly cited, significant violations
To view the full report, go to
                                  over the next year; and make enhancements or clarifications as necessary. Management’s
www.fdicig.gov/2006reports.asp
                                  planned actions are responsive to the recommendations.
                             TABLE OF CONTENTS


BACKGROUND                                                             1

RESULTS OF AUDIT                                                       3

FOLLOW-UP FOR COMPLIANCE VIOLATIONS                                    4
  DSC Compliance Examination Guidance                                  4
  Follow-up on Identified Violations                                   5
  Repeat, Significant Violations                                       6
  Supervisory Actions                                                  6
  Compliance Management System                                         7
  Examples of Repeat, Significant Violations; CMS Deficiencies; and
   Supervisory Actions                                                 8
  Conclusion                                                          10
  Recommendations                                                     10

OTHER MATTERS                                                         11
 DSC’s 2005 Performance Goals                                         11
 Recommendation                                                       11
 Ratings Consideration of Institution Compliance Training             11

CORPORATION COMMENTS AND OIG EVALUATION                               13

APPENDIX I:       OBJECTIVE, SCOPE, AND METHODOLOGY                   15
APPENDIX II:      CONSUMER COMPLIANCE RATING SYSTEM                   18
APPENDIX III:     SIGNIFICANT AND CONSECUTIVE
                  SIGNIFICANT VIOLATIONS CITED FROM
                  JANUARY 1, 2005 TO DECEMBER 31, 2005                20
APPENDIX IV:      CONSUMER PROTECTION LAWS                            21
APPENDIX V:       CORPORATION COMMENTS                                23
APPENDIX VI:      MANAGEMENT RESPONSE TO
                  RECOMMENDATIONS                                     26

TABLES
Table 1: Total Significant Violations for the Sampled Institutions     5
Table 2: Supervisory Actions Taken for Significant Violations          6
Federal Deposit Insurance Corporation                                                             Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                              Office of Inspector General


DATE:                                     September 29, 2006

MEMORANDUM TO:                            Sandra L. Thompson, Acting Director
                                          Division of Supervision and Consumer Protection


FROM:                                     Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                          Assistant Inspector General for Audits


SUBJECT:                                  Division of Supervision and Consumer Protection’s
                                          Supervisory Actions Taken for Compliance Violations
                                          (Report No. 06-024)


This report presents the results of our audit of the FDIC Division of Supervision and
Consumer Protection’s (DSC) supervisory actions taken for compliance violations of
consumer protection laws and regulations. The overall audit objective was to determine
whether DSC adequately addresses the violations and program deficiencies reported in
compliance examinations to ensure that FDIC-supervised institutions take appropriate
corrective action. Over 20 consumer protection laws and related regulations are
addressed by FDIC compliance examinations. For purposes of this audit, we focused on
compliance violations related to eight specific areas.1 Appendix I of this report discusses
our objective, scope, and methodology in detail.


BACKGROUND

The FDIC has supervisory responsibilities for ensuring that the financial institutions it
supervises comply with fair lending, privacy, and various other consumer protection laws
and regulations. The compliance examination is the primary means by which the FDIC
determines the extent to which a financial institution is complying with these
requirements. The FDIC also conducts visitations and investigations. Visitations are
used to review the compliance posture of newly chartered institutions coming under
FDIC supervision or to follow up on an institution’s progress on corrective actions.
Investigations are used to follow up on a particular consumer’s inquiries or complaints.

The compliance examination and follow-up supervisory attention accorded to violations
and other program deficiencies2 helps to ensure that consumers and businesses obtain the

1
  We focused on violations of the following statutes: Electronic Fund Transfer Act (EFTA); Equal Credit
Opportunity Act (ECOA) and Fair Housing Act (FHA); National Flood Insurance Act (Flood Insurance);
Home Mortgage Disclosure Act (HMDA); Gramm-Leach-Bliley Act (Privacy); Real Estate Settlement
Procedures Act (RESPA); Truth in Lending Act (TILA); and Truth in Savings Act (TISA).
2
  For purposes of this report, program deficiencies are weaknesses in an institution’s compliance
benefits and protections afforded them by law. In addition, violations of some of the
laws and regulations give rise to possible civil liability for damages and, in TILA cases,
administrative adjustments for understated finance charges or annual percentage rates
(APR) on loans. For example, TILA requires institutions to reimburse customers when
disclosure errors are identified involving an inaccurate APR or finance charge and that
error has resulted in “gross negligence” or a “clear and consistent pattern or practice of
violations.” These violations, in certain cases, can also result in civil money penalties.
Effective examinations and supervision should help to identify violations and preclude or
minimize their recurrence, thereby reducing the potential for penalties or reimbursements.

The presence of violations and the absence of an effective compliance management
system (CMS)3 to manage a financial institution’s compliance responsibilities also reflect
adversely on the institution’s senior bank management and board of directors and may
carry over into other areas of management responsibility. Additionally, DSC considers
compliance with fair lending, privacy, and other consumer protection requirements when
reviewing an application for entry into or expansion within the insured depository
institution system.

DSC examiners follow the revised Compliance Examination Procedures (Transmittal No.
2005-035, dated August 18, 2005) in examining institutions for compliance with
consumer protection laws and regulations. The FDIC’s compliance examinations blend
risk-focused and process-oriented approaches. Risk focusing involves using information
gathered about a financial institution to direct FDIC examiner resources to those
operational areas that present the greatest compliance risks. The compliance examination
procedures state that “a financial institution must develop and maintain a sound CMS that
is integrated into the overall management strategy of the institution.” Concentrating on
the institution’s internal control infrastructure and methods, or the “process,” used to
ensure compliance with federal consumer protection laws and regulations acknowledges
that the ultimate responsibility for compliance rests with the institution and encourages
examination efficiency.

Compliance examinations are conducted every 12-36 months, depending on an
institution’s size and the compliance and Community Reinvestment Act (CRA) ratings
assigned at the most recent examination. The FDIC follows the Uniform Interagency
Consumer Compliance Rating System approved by the Federal Financial Institutions
Examination Council (FFIEC) in 1980. Appendix II discusses the rating system and
describes how consumer compliance ratings are defined and distinguished.




management system as discussed in footnote 3.
3
  A financial institution uses its CMS to identify, monitor, and manage its compliance responsibilities and
risks. A CMS includes: (1) management and director oversight; (2) a compliance program (policies and
procedures, training, monitoring, and complaint process); and (3) audit procedures applied by the
institution’s internal or external compliance review function. During each examination, the institutions are
assessed by the examiners as strong, adequate, or weak in these areas.


                                                     2
RESULTS OF AUDIT

DSC identified and reported 9,534 significant4 compliance violations during 2005.5 Of
the 1,945 financial institutions examined in 2005, 1,607 (83 percent) institutions had been
cited with compliance violations deemed significant by the FDIC. Also, 837 (43 percent)
of the 1,945 financial institutions examined had repeat,6 significant violations, of which
708 (85 percent) institutions were rated “1” or “2.”

According to DSC officials, of the institutions examined in 2005, 96 percent were rated
“1” or “2,” indicating a strong or generally strong compliance position, while 4 percent
were rated “3,” “4” or “5,” indicating various levels of concern. DSC officials stated that
the FDIC’s supervisory approach is to increase the level of attention as an institution’s
compliance position worsens, and during 2005, DSC downgraded 297 institutions’
compliance ratings, issued 72 informal and 36 informal enforcement actions for
compliance, and made 43 compliance referrals to the Department of Justice or other
authorities.

However, DSC had not adequately ensured that the financial institutions in our sample
had taken appropriate corrective actions for repeat, significant violations that had been
cited during examinations. In many cases, consistent with the flexibility allowed by DSC
guidance for “1” or “2” rated institutions, DSC waited until the next examination to
follow up on repeat, significant compliance violations that had been identified in multiple
examinations before taking supervisory action. Specifically, we found that:

•   of the 51 reports of examination (ROE) we reviewed for 14 sampled institutions, DSC
    cited 431 significant violations related to 8 consumer protection laws and regulations;
•   47 of the 51 ROEs reviewed identified significant compliance violations;
•   5 of the 47 ROEs resulted in informal supervisory actions7 and prompted follow-up
    activities, and 1 visitation for a new FDIC-supervised institution also prompted
    follow-up activities, but DSC did not follow up on the remaining 41 reports until the
    next examination;
•   11 of the 14 sampled institutions had repeat, significant violations; and
•   all 14 sampled institutions had deficiencies and weaknesses noted in their CMS in at
    least 1 ROE. Also, DSC had identified serious deficiencies and weaknesses in some
    of the institutions’ CMSs that remained uncorrected for extended periods.
4
  The ROEs define significant violations as being of supervisory concern due to their serious nature,
recurrent pattern, or system-wide impact. Individually or collectively, these violations reflect deficiencies
requiring prompt corrective action by the financial institution. The criteria for what constitutes a
significant violation is discussed on the next page.
5
  We are using data we obtained from DSC’s System of Uniform Reporting of Compliance and CRA
Examination (SOURCE) as of January 2006.
6
  For purposes of this report, repeat violations represent repeat citations of the same violation codes in
consecutive examinations and are reported in SOURCE as consecutive significant violations. Appendix III
provides additional information reported in SOURCE from January 1, 2005, to December 31, 2005.
7
  When compliance violations and deficiencies are detected, examiners must determine the severity along
with the timing and form of needed corrective actions. The FDIC uses a number of tools to address
supervisory concerns, ranging from informal advice and written criticisms, to ratings downgrades and
informal supervisory actions, to formal actions that are legally enforceable. Informal supervisory actions
are voluntary commitments made by an insured institution’s board of directors and are not legally
enforceable.


                                                      3
As a result of these repeat, significant violations, consumers and businesses of the
affected institutions may not obtain the benefits afforded them by consumer protection
laws and regulations.

We also identified certain other matters that warrant management attention relating to
(1) performance goals associated with supervisory actions taken for compliance
violations and (2) consideration of an institution’s training program in compliance
ratings.


FOLLOW-UP FOR COMPLIANCE VIOLATIONS

DSC often identified and reported significant compliance violations and program
deficiencies in multiple examinations over a period of years before taking supervisory
action to address repeat violations. DSC’s guidance does not require follow-up between
examinations or enforcement actions for institutions that repeatedly violate consumer
protection laws and regulations in a manner cited as significant by FDIC examiners.
Instead, DSC’s guidance gives staff the flexibility to wait until the next examination to
follow up on significant violations, unless the institution is rated a “4” or “5.” As a
result, consumers and businesses of the affected institutions may not obtain the benefits
and protection afforded them by these laws and regulations.

DSC Compliance Examination Guidance

DSC’s revised Compliance Examination Procedures state that compliance examinations
are the primary means the FDIC uses to determine whether a financial institution is
meeting its responsibility to comply with the requirements and proscriptions of federal
consumer protection laws and regulations.

The Compliance Examination Procedures do not require follow-up between
examinations on significant compliance violations. Significant violations include those
violations that meet any of the following criteria:

 (1) recurrent and outstanding for an extended period of time;
 (2) affect, or could affect, a large number of transactions or consumers in a way that
     has, or could have, severe consequences for the consumers or the financial
     institution;
 (3) continuation of a violation cited at the previous examination and is repeated in
     exactly the same manner at the current examination; or
 (4) willful act or omission to defeat the purpose of, or circumvent, law or regulation.

The Compliance Examination Procedures state that recommendations by the examiner-
in-charge (EIC) for corrective actions that address the specific deficiencies noted in the
narrative of the ROE should be appropriate in light of the size and complexity of the
institution’s operations. The recommendations should enable the institution to resolve
current CMS deficiencies and regulatory violations and to minimize future violations by
making improvement to its CMS. Ultimately, the board of directors and management of


                                             4
the institution are responsible for determining the actions they will take to address the
examination findings. The EIC should consider identifying by name those individuals
who commit to specific corrective actions, in order to assist in follow-up at future
examinations.

Follow-up on Identified Violations

For 41 (80 percent) of the 51 ROEs in our sample, DSC did not follow up until the next
examination, usually 2 or 3 years later, to determine whether the institution had corrected
its significant violations. Of the remaining 10 ROEs, 5 ROEs resulted in informal
supervisory action, such as bank board resolutions (BBR)8 and memoranda of
understanding (MOU)9 requiring banks to provide DSC with memoranda or progress
reports documenting corrective actions; 2 ROEs were visitations;10 and 3 ROEs contained
no significant violations.

As shown in Table 1 below, of the 431 significant violations we reviewed,
111 (26 percent) violations were TILA violations and 103 (24 percent) violations were
for RESPA violations. Both of these statutes are intended to provide consumers with
certain rights dealing with credit and real estate transactions. TILA requires that
institutions disclose their terms and cost to consumers who receive credit. The statute
also gives consumers the right to rescind certain credit transactions that involve a lien on
a consumer’s principal dwelling, regulates certain credit card practices, and provides a
means for fair and timely resolution of credit billing disputes. RESPA requires that
institutions provide consumers with pertinent and timely disclosures regarding real estate
settlement costs. Further, RESPA is intended to protect consumers against certain
abusive practices, such as kickbacks, and places limitations on the use of escrow
accounts.

Table 1: Total Significant Violations for the Sampled Institutions
                       Chicago Regional      Kansas City Regional
       Consumer                                                        Boston Area Office
                             Office                 Office                                       Total
     Protection Laws                                                     (4 Institutions)
                        (4 Institutions)       (6 Institutions)
    EFTA                       6                         12                    13                31
    ECOA/FHA                   14                        34                     13               61
    Flood Insurance            9                         21                     14               44
    HMDA                        7                        17                      9                33
    Privacy                    0                          2                     1                  3
    RESPA                      24                        41                     38               103
    TILA                      37                         68                     6                111
    TISA                       7                         25                     13               45
           Total              104                        220                   107               431
Source: OIG analysis of ROEs for the 14 sampled institutions.


8
  A BBR is an informal commitment adopted by a financial institution’s board of directors (often at the
request of the FDIC), directing the institution’s personnel to take corrective action for specific noted
deficiencies. BBRs may also be used to strengthen and monitor the institution’s progress with regard to a
particular component rating or activity.
9
  An MOU is an informal agreement between an institution and the FDIC that is signed by both parties.
10
   One visitation occurred between compliance examinations to review the institution’s progress on
correcting significant violations. The other visitation was DSC’s first visit to a new FDIC-supervised bank;
DSC performed the first compliance examination at the bank within a year of the visitation.


                                                     5
Repeat, Significant Violations

Of the 14 institutions we selected for review, 11 (79 percent) had repeat, significant
violations. Seven institutions violated the same consumer protection laws and regulations
during three or more consecutive examination cycles. No informal actions were taken for
6 of the 11 institutions. The remaining five institutions were subject to informal
supervisory actions. Further, three of the five institutions were again cited with repeat,
significant violations when the informal actions were terminated by DSC management.11
Consequently, the supervisory actions were not always effective in ensuring that these
institutions were in compliance with consumer protection laws and regulations.
According to DSC, examiners consider the circumstances in determining whether a
violation is a repeat violation and indicative of a weakness in procedures or a failure to
take appropriate corrective action. Often, a violation code can be used in ROEs many
times, but its use could be indicative of a number of distinct issues, problems, or causes.
DSC violation codes were developed broadly, and DSC stated that a repeat violation at
one examination can result from a different set of circumstances than had been in place at
the prior examination. Repeat violations may also arise when regulatory requirements
are changed or amended. For example, the bank may have corrected the previous issue,
but a regulatory change could result in a new infraction of the same code.
However, the FDIC’s Compliance Examination Procedures specifically state that
violations are significant if they had appeared in the Significant Violations section of the
ROE for the previous examination and are repeated in exactly the same manner at the
current examination. Isolated repeat violations are not categorized as significant in the
examination reports. Further, for our analysis of the repeat, significant violations
involving 11 institutions, we relied on the examiners’ description of the significant
violations as “repeat violations” in the Significant Violations sections of the ROEs.

Supervisory Actions

Supervisory actions taken by DSC did not always ensure that institutions had corrected
repeat, significant violations. Of the 14 institutions we reviewed, 5 institutions were
subject to informal supervisory actions once their rating had changed from a “2” to a “3.”
Table 2 below provides a summary of the actions.

Table 2: Supervisory Actions Taken for Significant Violations
                                                     Follow-up             Year of      Repeat, Significant Violations
                       Type of      Year of         Visitation by        Subsequent    Cited, and Action Terminated at
       Institution     Action       Action              DSC              Examination       Subsequent Examination
      Institution A     MOU          2003                 No                 2005                     Yes
      Institution B      BBR          2004                No                 2005                     Yes
                             a                               b
    Institution C       BBR             2005                NA                 NA                     NA
    Institution D       MOU             2003                Yes                2005                   Yes
    Institution E       BBRa            2005                NA                 NA                     NA
a
  These supervisory actions were still in effect as of the date of our review.
b
  NA designates not applicable.


11
     Supervisory actions for the other two institutions were still in effect as of the date of our review.


                                                            6
As shown in Table 2, repeat, significant violations still had not been corrected at three of
the five institutions subject to informal supervisory actions when these actions had been
terminated. Further, DSC concluded that the institutions had adequately complied with
the provisions of the actions, even though the examinations of the institutions continued
to identify repeat violations. Pages 8-10 of this report discuss, in detail, examples of the
institutions in our sample that had been subject to informal supervisory actions and cited
with repeat violations at the subsequent examination when the actions were terminated.

DSC’s revised Formal and Informal Action Procedures (FIAP) Manual, dated
December 9, 2005, states that the FDIC generally initiates formal or informal corrective
action against institutions with a composite safety and soundness or compliance rating of
“3,” “4,” or “5,” unless specific circumstances warrant otherwise. Informal action is
generally appropriate for institutions that receive a composite rating of “3” for safety and
soundness or compliance. This rating indicates that the institution has weaknesses that, if
left uncorrected, could cause the institution’s condition to deteriorate. Formal action12 is
generally initiated against an institution with a composite rating of “4” or “5” for safety
and soundness or compliance if there is evidence of unsafe or unsound practices and/or
conditions or concerns over a high volume or severity of violations at the institution. In
more serious situations, however, formal action could be considered even for institutions
that receive composite ratings of “1” or “2” for safety and soundness or compliance
examinations to address specific actions or inactions by the institution. The FIAP manual
also states that informal actions are particularly appropriate when the FDIC has
communicated with bank management regarding deficiencies and has determined that the
institution’s managers and board of directors are committed to, and capable of, taking
corrective action with some direction but without initiation of a formal corrective action.
However, informal actions are voluntary and not legally enforceable. As shown in
Table 2 on the previous page, imposing informal actions does not necessarily result in the
correction of repeat significant violations.

Compliance Management System

DSC did not adequately ensure that the financial institutions in our sample corrected
compliance program deficiencies. All 14 institutions we reviewed had deficiencies and
weaknesses noted in at least 1 ROE. In addition, as discussed in the next section of our
report, DSC identified serious deficiencies and weaknesses in some of these financial
institutions’ CMSs that remained uncorrected for extended periods.

To determine whether an institution has an effective CMS, DSC evaluates three
interdependent elements, including (1) board management and oversight; (2) the
institution’s compliance program, including training and monitoring; and (3) a
compliance audit.13 According to the Compliance Examination Procedures, when all
elements are strong and working together, an institution will be successful at managing

12
   Formal actions are notices or orders issued by the FDIC against insured financial institutions and/or
individual respondents. The purpose of formal actions is to correct noted safety and soundness
deficiencies, ensure compliance with federal and state banking laws, assess civil money penalties, and/or
pursue removal or prohibition proceedings. Formal actions are legally enforceable.
13
   A compliance audit is an independent review of an institution’s compliance with consumer protection
laws and regulations conducted by the institution or its contractor.


                                                     7
its compliance responsibilities and risks now and in the future. Noncompliance of
consumer protection laws and regulations can result in monetary penalties, litigation, and
formal enforcement actions. The responsibility for ensuring that an institution is in
compliance appropriately rests with the institution’s board of directors and management.

Although the Compliance Examination Procedures do not cite a regulation requiring
FDIC-supervised institutions to have a CMS, the FDIC expects every FDIC-supervised
institution to have an effective CMS adapted to its unique business strategy. In June
2003, the FDIC issued guidance related to the Compliance Examination Procedures,
informing institutions that the Corporation had revised its approach to examining
institutions for compliance with consumer protection laws and regulations.14 The new
approach combined a risk-based examination process with an in-depth evaluation of an
institution’s CMS.

Examples of Repeat, Significant Violations; CMS Deficiencies; and Supervisory
Actions

The following examples illustrate repeat, significant compliance violations; CMS
program deficiencies; and cases in which DSC supervisory actions were not always
effective in ensuring that institutions took timely and complete corrective action.

     •   From 1997 to 2005, DSC cited 47 significant violations for Institution A, in our
         sample, that included 13 (28 percent) repeat violations. During examinations
         conducted in 1998, 2001, and 2003, Institution A was repeatedly cited for
         RESPA, TILA, HMDA, and TISA violations. As a result, DSC downgraded the
         institution’s compliance rating from a “2” to a “3,” and imposed an MOU in 2003,
         about 5 years after the initial citations. During the subsequent 2005 examination,
         the institution was cited for the fourth consecutive time for the same RESPA
         violation that had been cited in the 1998, 2001, and 2003 examinations and was
         cited for the third consecutive time for the same TILA and HMDA violations that
         had been identified in the 2001 and 2003 examinations. However, DSC
         concluded in its 2005 ROE that the MOU had proven to be an effective tool for
         correcting the deficiencies identified at previous examinations. As a result of the
         improvements, DSC recommended that the MOU be terminated. In addition,
         DSC reported continued program deficiencies, which included training, during
         two consecutive examinations.

     •   From 1997 to 2005, DSC cited 77 significant violations for Institution B, in our
         sample, that included 17 (22 percent) repeat violations. During examinations
         conducted in 1999, 2001, and 2003, Institution B was repeatedly cited for flood
         insurance, RESPA and HMDA violations.15 As a result of the 2003 examination,
         DSC downgraded the bank’s compliance rating from a “2” to a “3.” The bank
         adopted a BBR in 2004, about 5 years after the initial citations, requiring that

14
   Financial Institution Letter (FIL), Revised Compliance Examination Process, dated June 20, 2003 (FIL-
52-2003). FILs are advisories to financial institutions regarding the latest policies and procedures, or new
products available.
15
   In 2004, FDIC assessed civil money penalties against Institution B for violations of Part 339, the FDIC’s
flood insurance regulation, and the Federal Reserve Board’s Regulation C, regarding HMDA.


                                                     8
         bank management correct all violations listed in the compliance report and initiate
         appropriate procedures to prevent their recurrence. In its March 2005 ROE, DSC
         states that Institution B had adequately addressed the requirements of the BBR,
         even though DSC cited the bank for the fourth consecutive time for the same
         HMDA violation that had been cited in the 1999, 2001, and 2003 examinations.
         Further, DSC reported program deficiencies in five consecutive examinations,
         citing weaknesses in the CMS program that included a lack of comprehensive
         review procedures, training, and the bank’s audit function.

     •   From 1997 to 2005, DSC cited 44 significant violations for Institution F, in our
         sample, that included 5 (11 percent) repeat violations. During examinations
         conducted in 1998, 2000, and 2003, Institution F was repeatedly cited for RESPA
         violations. In the 1998 examination, when the initial citation was made, the bank
         promised future compliance. However, the same violation was cited at the
         subsequent 2000 examination and again in the 2003 ROE. During the 2005
         examination, Institution F was also cited for repeat TISA and ECOA significant
         violations. Program deficiencies were also noted during two consecutive
         examinations. DSC recommended that the institution adopt a written CMS
         program and internal review procedures to prevent the recurrence of the
         violations.

     •   From 1997 to 2005, DSC cited 44 significant violations for Institution C, in our
         sample, that included 7 (16 percent) repeat violations. During examinations
         conducted in 1997, 2003,16 and 2005, Institution C was repeatedly cited for TILA
         violations. In the 1997 ROE, when the initial citation was made, bank personnel
         promised future compliance. However, the same violation was subsequently cited
         for the third time in the 2005 ROE when DSC downgraded the bank’s compliance
         rating from a “2” to a “3” and the bank adopted a BBR. In addition, DSC
         described the institution’s CMS as lacking a compliance program and internal
         monitoring procedures and having inadequate training and review procedures
         identified by three consecutive examinations.

     •   From 1997 to 2005, DSC cited 58 significant violations for Institution D, in our
         sample, that included 6 (10 percent) repeat violations. During examinations
         conducted in 1997, 1999, and 2002, Institution D was repeatedly cited for RESPA
         and other significant violations. The total number of significant violations more
         than doubled between the 1999 and 2002 examinations and were categorized by
         DSC as “more serious.” As a result, DSC downgraded the compliance rating for
         Institution D from a “2” in 1999 to a “3” in 2002. The 2002 ROE stated that the
         prior ROE informed the bank’s board and management that the number of
         violations had doubled and repeat violations had occurred because the written
         compliance policy had not been implemented and effective program tools such as
         monitoring, audit, and training had not been established or implemented. An
         MOU was imposed on the institution in 2003, and DSC conducted a visitation
         during 2004 to assess the bank’s compliance with the MOU. In response, the
         bank corrected a majority of the violations cited during the 2002 examination, but
16
  This institution did not have an examination between 1997 and 2003 because DSC had revised its
examination frequency schedule.


                                                   9
        some violations had not been corrected. For example, during the 2005
        examination, the institution was cited for the third consecutive time for the same
        flood insurance violation that had been cited in the 1999 and 2002 examinations.

Conclusion

The FDIC’s Deputy to the Chairman and Chief Operating Officer has said publicly that
the FDIC’s supervision and enforcement of consumer laws and regulations are part of
ensuring public confidence in the banking system. Without effective enforcement,
consumers and businesses may not obtain the benefits and protection afforded them by
such laws and regulations. Consumer protection laws are intended to deter financial
institutions from committing such acts as:

    •   discrimination based on race, color, religion, national origin, sex, marital status,
        and age in any aspect of a credit transaction, including residential real-estate-
        related transactions, such as making loans to buy, build, repair, or improve a
        dwelling;

    •   failure to provide borrowers with pertinent and timely disclosures regarding the
        nature and costs of the real estate settlement process; and

    •   inaccurate and unfair credit billing, credit card, and leasing transactions.

In addition, violations of consumer laws and regulations can give rise to civil liability for
damages and, in TILA cases, administrative adjustments for understated finance charges
or annual percentage rates.

Recommendations

We recommend that the Director, DSC, strengthen guidance related to the monitoring and
follow-up processes for compliance violations by revising:

   1. The Compliance Examination Procedures to require follow-up between
      examinations on repeat, significant compliance violations and program
      deficiencies.

   2. The FIAP manual to require consideration of supervisory actions when any
      institution’s corrective action on repeat, significant violations is not timely or
      when repeat, significant violations are a recurring examination finding.




                                             10
OTHER MATTERS

DSC’s 2005 Performance Goals

DSC does not have a performance goal17 associated with the supervision of institutions
rated “1,” “2,” and “3” that are cited with repeat, significant compliance violations.
Instead, one of DSC’s 2005 annual performance goals was to take prompt and effective
supervisory action to monitor and address problems identified during compliance
examinations of FDIC-supervised institutions that receive a “4” or “5” rating for
compliance with consumer protection and fair lending laws. However, of the 837
institutions with repeat significant violations in 2005, 708 (85 percent) institutions were
rated “1” and “2” and 126 (15 percent) institutions were rated “3.” Only three institutions
were rated “4,” and none were rated “5.”

Examiners are instructed to document, for each violation and CMS program deficiency,
corrective actions taken by management during the examination and commitments for
future corrective action. DSC does not require a response from bank management on
corrective actions unless the institution is rated a “3,” “4,” or “5.” According to DSC, a
“1” or “2” rating indicates that the institution has a CMS that is sufficient for correcting
violations and deficiencies in the normal course of business. However, examinations of
institutions rated “1” or “2” are identifying numerous instances of repeat, significant
violations. As a result, the FDIC’s performance goals did not address the majority of
repeat, significant violations.

Recommendation

We recommend that the Director, DSC, revise:

     3. DSC’s performance goals to focus more broadly on institutions with repeat,
        significant violations.

Ratings Consideration of Institution Compliance Training

As summarized in Appendix II of this report, each financial institution is assigned a
consumer compliance rating predicated upon an evaluation of the nature and extent of its
present compliance with consumer protection and civil rights statutes and regulations and
the adequacy of its operating systems designed to ensure compliance on a continuing
basis.

The FDIC’s compliance ratings standards specifically state, “An institution that is
assigned a rating of ‘2’ is in generally strong compliance. Management is capable of
administering an effective compliance program. Compliance training is satisfactory, and
there is no evidence of practices resulting in repeat violations.”



17
  According to the Government Performance and Results Act, a performance goal is, in general, a target
level of performance against which actual achievement can be compared. Performance goals are to be
included in agency annual performance plans, including those of the FDIC, as required by the Act.


                                                   11
While we are not questioning the assigned rating or the relative weighting given to the
training component of the compliance program, we are nonetheless concerned about the
apparent inconsistency between the ROEs and the ratings’ definitions. Specifically, we
observed that the narratives for 29 (81 percent) of the 36 ROEs for institutions in our
sample assigned a “2” rating appeared inconsistent with the definition of a “2” rating. All
29 of the ROEs identified the lack of training as the cause or a contributing factor for the
significant violations identified in the ROEs. However, compliance ratings standards
state that training has to be satisfactory for a “2” rating. In addition, 11 of the 14
institutions in our sample that were rated a “2” had repeat significant violations as
identified by DSC. The examples below illustrate that the ROE narratives for these 29
institutions were not consistent with the definition of a “2” rating.

     •   Institution G’s 2005 ROE summary states, “The bank’s training program is
         generally adequate; however, several of the violations noted in this report are
         attributed to a lack of training. The lack of appropriate monitoring procedures
         and training has resulted in 15 violations including reimbursable violations of
         [TILA], repeat violations of Equal Credit Opportunity and Consumer Protection
         in the Sales of Insurance, and violations of Home Mortgage Disclosure and
         Flood Insurance, among others.”

     •   Institution H’s 1998 ROE summary states “The compliance program
         deficiencies include weak monitoring, poor audit coverage and response time, as
         well as inefficient training.” DSC cited seven significant violations, including
         RESPA, Flood Insurance, EFTA, and HMDA violations.

     •   During its 1997 examination, Institution D was cited for 18 significant violations
         that were attributed to management oversight and being unaware or
         misunderstanding the specific compliance requirements. In 1999, DSC cited
         Institution D for 19 violations, including a repeat RESPA violation. DSC
         reported that “The bank has a written, Board-approved compliance policy that
         calls for the development of compliance procedures, staff training, and periodic
         testing. However, the policy has not been implemented to any significant
         degree.” DSC further reported that “bank management should take immediate
         steps to reinforce the bank’s compliance efforts through some form of systematic
         training and the establishment of internal monitoring procedures.” In 2003, over
         3 years later, DSC imposed an MOU on the bank, recommending that training be
         improved. DSC conducted a visitation in 2004 and reported that the institution
         had made good progress in improving its training system. The institution’s
         rating was upgraded to satisfactory in 2005, even though four significant
         violations were cited, and one was a repeat violation cited in the previous two
         examinations.

We are not making any recommendations on this observation. DSC officials told us that
an FFIEC task force is reviewing the definitions of the compliance ratings for institutions.
We encourage DSC to share our observation with the task force for its consideration
when revising the compliance rating definitions.




                                            12
CORPORATION COMMENTS AND OIG EVALUATION

On September 29, 2006, the Acting Director, DSC, provided a written response to a draft
of this report. The DSC response is presented in its entirety in Appendix V. Overall,
DSC agreed to take corrective actions that are responsive to the recommendations.
Appendix VI contains a summary of management’s response to the recommendations.
The recommendations are resolved but will remain open until we have determined that
the agreed-to actions have been completed and are effective.

In response to recommendations 1 and 3, DSC stated that it intends to analyze the
prevalence and scope of repeatedly cited, significant violations to determine whether any
changes in DSC policies and/or performance goals are necessary. DSC will complete this
analysis and implement appropriate actions by September 30, 2007.

In response to recommendation 2, DSC stated that current FDIC guidance already
permits DSC to consider taking supervisory action against highly rated banks. Further,
DSC stated that the FIAP manual presents a clear statement of DSC policy as follows:

       In more serious situations, however, formal action could be considered even for
       institutions that receive composite ratings of “1” or “2” for safety and soundness
       or compliance examinations to address specific actions or inactions by the
       institution.

Nonetheless, DSC agreed to reevaluate current FDIC and FFIEC guidance to determine
whether enhancements or clarifications are needed. DSC will complete this process by
September 30, 2007. With regard to this recommendation, we encourage the FDIC to
consider the full range of supervisory actions available to address repeat, significant
compliance violations, not just formal actions as addressed in the FIAP manual.

In addition to specifically addressing the recommendations in our report, DSC’s response
included general comments regarding our findings. The response also discussed DSC’s
commitment to consumer protection and its response to significant violations discovered
during compliance examinations.

In discussing its commitment to consumer protection, DSC stated that, during the 8-year
period covered by our audit, DSC issued 1,075 formal and informal enforcement actions
to ensure that institutions under FDIC supervision complied with consumer protection
laws and regulations. DSC also stated that, over the same period, it required banks to
refund over $10 million to 220,567 consumers as a result of TILA violations and to make
over $5 million in reimbursement to consumers harmed by unfair and deceptive practices
prohibited by the Federal Trade Commission Act.

With respect to violations discovered during compliance examinations, DSC pointed out
that, although our report focused on repeat, significant violations cited in examination
reports, all but five of these reports were assigned either a “1” or a “2” compliance rating
to the banks involved. DSC further stated that it believes that institutions with a “1” or
“2” compliance rating have “strong” or “generally strong” compliance programs and are
capable of addressing problems. At the next examination, consistent with FDIC


                                             13
examination procedures, DSC follows up on institution efforts to correct violations. In
addition, DSC believes that some violations represent less risk to consumers, which DSC
takes into consideration as part of the evaluation process to determine the need for follow
up.

While we take no exception to these comments, our view is that repeat, significant
violations should be considered more serious for purposes of supervisory action and
follow-up on corrective action by institutions. As noted in our report, our review of the
14 institutions in our sample found that 11 (79 percent) institutions had repeat, significant
violations. As shown in our examples, the institutions repeatedly violated the same laws
and regulations for several years before DSC took any supervisory action.

With respect to our report’s observation on ratings, DSC stated that the FDIC strives
diligently to present examination findings in a consistent manner and validates the
processes by secondary review and a strong internal control program. DSC also stated
that each rating is based on a qualitative analysis of the factors comprising that rating,
with some factors given more weight than others, depending on the situation. Finally, in
its response to our report, DSC states that we say the ratings observation is outside the
scope of our audit. In our report, we did not question the assigned rating or the relative
weighting given to the training or other components of the compliance program or the
process that resulted in those ratings. While these matters are within the scope of the
audit, our intent was only to express concern about the possible inconsistency between
the assigned ratings and the ratings’ definitions. We acknowledge that the FFIEC has a
task force reviewing the ratings definitions and hope that this information is useful in that
regard.




                                             14
                                                                          APPENDIX I


                   OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of this audit was to determine whether DSC adequately addresses the
violations and program deficiencies reported in compliance examinations to ensure that
FDIC-supervised institutions take appropriate corrective action. For purposes of this
audit, we made a distinction between corrective actions taken by bank management to
address compliance violations and actions taken by the FDIC to ensure compliance. The
FDIC’s actions include efforts to follow up with bank management after examinations,
including correspondence, follow-up visitations or examinations, and the use of
supervisory action. Supervisory action includes informal supervisory actions (such as
BBRs or MOUs) and formal enforcement actions (such as cease and desist orders) to
prompt management action. We performed our audit from January 2006 through July
2006 in accordance with generally accepted government auditing standards.

Scope and Methodology

We judgmentally selected for review 14 institutions with significant compliance
violations in 2004 or 2005 from 3 DSC regions. The 14 institutions had a total of 431
significant violations for the period January 1, 1997 to December 31, 2005 and ranged in
asset size from $34 million to $6.5 billion. We have provided the names of the
referenced institutions to DSC under separate cover. We analyzed DSC’s process for
identifying, reporting, and referring compliance violations and program deficiencies for
appropriate corrective actions, and we assessed the adequacy of DSC actions to follow up
and evaluate corrective actions promised and/or taken by bank management.

To achieve the audit objective, we interviewed FDIC officials in:

   •   DSC’s headquarters in Washington, D.C., and the Kansas City and Chicago
       Regional Offices responsible for conducting supervisory compliance
       examinations.

In addition, we did the following:

   •   Reviewed a prior OIG audit report, which is summarized in the Prior Coverage
       section of this appendix.
   •   Reviewed applicable FDIC rules and regulations, FDIC procedure manuals, DSC
       Regional Directors Memoranda, FILs, and DSC Internal Review Reports related
       to compliance examinations.
   •   Reviewed other government agency Web sites for information on laws and
       regulations pertaining to consumer rights and compliance violations.
   •   Verified with DSC our selection of the following categories of consumer
       protection laws and regulations:
           1. EFTA
           2. ECOA/FHA


                                           15
                                                                           APPENDIX I

           3. Flood Insurance
           4. HMDA
           5. Privacy
           6. RESPA
           7. TILA
           8. TISA
   •   Reviewed the FDIC Strategic Plan for 2005-2010 for performance measures
       related to consumer protection.
   •   Consulted the Counsel to the Inspector General to assist in verifying applicable
       criteria and researching potential legal issues.

Internal Controls

We identified DSC’s internal controls related to the risk-focused examination process for
compliance examinations, including the identification of and follow-up on significant
compliance violations and program deficiencies. We reviewed and assessed controls
related to DSC follow-up on significant compliance violations and program deficiencies.
Our review identified weaknesses in these areas as described in the findings section of
our report. We did not assess the adequacy of controls over DSC’s examination process
or the compliance ratings assigned during the examination. We also did not determine
whether DSC should have taken more stringent enforcement actions (i.e., formal actions)
with respect to significant repeat consumer violations.

Reliance on Computer-based Data

We determined through interviews and information available on the DSC Web site that
the DSC SOURCE system is the primary tool DSC uses to track and document
compliance examinations of FDIC-supervised institutions. During the audit, we
conducted limited testing of SOURCE data to determine its accuracy as it related to
tracking significant compliance violations identified in ROEs. Of the 431 violations
reviewed in our sample, we identified 1 significant compliance violation that was
reported during an examination but was not included in SOURCE. We brought this item
to DSC’s attention. For the purposes of the audit, we did not rely on SOURCE system
data. Our assessment centered on reviews of hardcopy ROEs, examination workpapers,
and other documents such as progress reports and correspondence files. We also
determined that DSC performs internal reviews to ensure that SOUCE data are accurate.

Compliance With Laws and Regulations

We reviewed DSC’s revised Compliance Examination Procedures (Transmittal
No. 2005-035, dated August 18, 2005) to identify guidance for examiners to use when
assessing an institution’s CMS, which must adequately address (through oversight,
policies and procedures, training, monitoring, complaint process, and audit) all areas
related to compliance rules and regulations. For purposes of this audit, we reviewed eight




                                           16
                                                                              APPENDIX I

statutes: EFTA, ECOA/FHA, Flood Insurance, HMDA, Privacy, RESPA, TILA, and
TISA. We did not identify any instances of FDIC noncompliance with these laws and
regulations although our audit identified areas for strengthening DSC’s supervisory
efforts for implementing and enforcing institution compliance with these laws.

Performance Measures

The Government Performance and Results Act of 1993 directs Executive Branch
agencies to develop a strategic plan, align agency programs and activities with concrete
missions and goals, manage and measure results to justify appropriations and
authorizations, and design budgets that reflect strategic missions. In fulfilling its primary
supervisory responsibilities, the FDIC pursues two strategic goals:

  • FDIC-supervised institutions are safe and sound, and
  • consumers’ rights are protected, and FDIC-supervised institutions invest in their
    communities.

The FDIC’s strategic goals are implemented through the Corporation’s Annual
Performance Plan. The annual plan identifies performance goals, indicators, and targets
for each strategic objective. DSC’s 2005 Annual Performance Plan contained one goal
related to the scope of our audit -- to take prompt and effective supervisory action to
monitor and address problems identified during compliance examinations of FDIC-
supervised institutions that receive a “4” or “5” rating for compliance with consumer
protection and fair lending laws. The Other Matters section of our report discusses our
review of this area.

Fraud and Illegal Acts

The objective of this audit did not lend itself to testing for fraud and illegal acts.
Accordingly, the survey and audit programs did not include specific audit steps to test for
fraud and illegal acts. However, we were alert to situations or transactions that could
have been indicative of fraud or illegal acts, and no such acts came to our attention.

Prior Coverage

In September 2005, the OIG issued Audit Report No. 05-038, Division of Supervision
and Consumer Protection’s Risk-focused Compliance Examination Process. The overall
objective was to determine whether DSC’s risk-focused compliance examination process
results in examinations that are adequately planned and effective in assessing financial
institution compliance with consumer protection laws and regulations. We found that
examination documentation did not always show the transaction testing or spot checks
conducted during the on-site portion of the examinations, including testing to ensure
reliability of the institutions’ compliance review functions. Also, examiners did not
always document whether the examination reviewed all the compliance areas in the
planned scope of review.




                                             17
                                                                           APPENDIX II


                  CONSUMER COMPLIANCE RATING SYSTEM

By order of the Federal Financial Institutions Examination Council (FFIEC) in November
1980, each financial institution is assigned a consumer compliance rating predicated upon
an evaluation of the nature and extent of its present compliance with consumer protection
and civil rights statutes and regulations and the adequacy of its operating systems
designed to ensure compliance on a continuing basis. The rating system is based on a
scale of “1” through “5.” An institution rated a “1” represents the highest rating and has
the lowest level of supervisory concern, while a “5” rating represents the lowest, most
critically deficient level of performance and, therefore, the highest degree of supervisory
concern. Consumer Compliance Ratings are defined and distinguished as follows.

A “1” Rating

 An institution in this category is in a strong compliance position. Management is
capable of, and staff is sufficient for, effectuating compliance. An effective compliance
program, including an efficient system of internal procedures and controls, has been
established. Changes in consumer statutes and regulations are promptly reflected in the
institution's policies, procedures, and compliance training. The institution provides
adequate training for its employees. If any violations are noted, they relate to relatively
minor deficiencies in forms or practices that are easily corrected. There is no evidence of
discriminatory acts or practices, reimbursable violations, or practices resulting in repeat
violations. Violations and deficiencies are promptly corrected by management. As a
result, the institution gives no cause for supervisory concern.

A “2” Rating

An institution in this category is in a generally strong compliance position. Management
is capable of administering an effective compliance program. Although a system of
internal operating procedures and controls has been established to ensure compliance,
violations have nonetheless occurred. These violations, however, involve technical
aspects of the law or result from oversight on the part of operating personnel.
Modification in the bank's compliance program and/or the establishment of additional
review/audit procedures may eliminate many of the violations. Compliance training is
satisfactory. There is no evidence of discriminatory acts or practices, reimbursable
violations, or practices resulting in repeat violations.

A “3” Rating

Generally, an institution in this category is in a less than satisfactory compliance
position. A “3” rating is a cause for supervisory concern and requires more than normal
supervision to remedy deficiencies. Violations may be numerous. In addition,
previously identified practices resulting in violations may remain uncorrected.
Overcharges, if present, involve a few consumers and are minimal in amount. There is
no evidence of discriminatory acts or practices. Although management may have the
ability to effectuate compliance, increased efforts are necessary. The numerous



                                            18
                                                                            APPENDIX II

violations discovered are an indication that management has not devoted sufficient time
and attention to consumer compliance. Operating procedures and controls have not
proven effective and require strengthening. This may be accomplished by, among other
things, designating a compliance officer and developing and implementing a
comprehensive and effective compliance program. By identifying an institution with
marginal compliance early, additional supervisory measures may be employed to
eliminate violations and prevent further deterioration in the institution's less-than-
satisfactory compliance position.

A “4” Rating

An institution in this category requires close supervisory attention and monitoring to
promptly correct the serious compliance problems disclosed. Numerous violations are
present. Overcharges, if any, affect a significant number of consumers and involve a
substantial amount of money. Often, practices resulting in violations and cited at
previous examinations remain uncorrected. Discriminatory acts or practices may be in
evidence. Clearly, management has not exerted sufficient effort to ensure compliance.
Management’s attitude may indicate a lack of interest in administering an effective
compliance program which may have contributed to the seriousness of the institution's
compliance problems. Internal procedures and controls have not proven effective and are
seriously deficient. Prompt action on the part of the supervisory agency may enable the
institution to correct its deficiencies and improve its compliance position.

A “5” Rating

An institution in this category is in need of the strongest supervisory attention and
monitoring. It is substantially in noncompliance with the consumer statutes and
regulations. Management has demonstrated its unwillingness or inability to operate
within the scope of consumer statutes and regulations. Previous efforts on the part of the
regulatory authority to obtain voluntary compliance have been unproductive.
Discrimination, substantial overcharges, or practices resulting in serious repeat violations
are present.




                                             19
                                                                                                                              APPENDIX III



                   SIGNIFICANT AND CONSECUTIVE SIGNIFICANT VIOLATIONS CITED FROM
                                 JANUARY 1, 2005 TO DECEMBER 31, 2005


                                                       Number of                Percentage of   Number of
                                                       Institutions              Institutions   Institutions    Percentage of
                        Number of                       Examined                  Examined          with       Institutions with
                          FDIC-           Number of       with                       with       Consecutive      Consecutive
                        Supervised        Institutions Significant               Significant    Significant       Significant
                       Institutionsa      Examinedb Violations                    Violations     Violations       Violations
       Region               (a)                (b)          (c)                    (d=c/b)           (e)             (f=e/c)
       Atlanta              742               216          187                       87%             86               46%
       Chicago            1,090               416          341                       82%            180               53%
        Dallas              987               387          310                       80%            134               43%
     Kansas City          1,367               590          547                       93%            331               61%
     New York               602               188          130                       69%             68               52%
         San
      Francisco              467               148               92                 62%             38               41%
        Total               5,255             1,945             1,607               83%             837              52%
Source: OIG analysis and DSC’s tracking system, SOURCE.
a
    As of July 26, 2006.
b
    Represents examination period January 1, 2005 through December 31, 2005.




                                                                           20
                                                                           APPENDIX IV


                         CONSUMER PROTECTION LAWS

The primary consumer-protection statutes and associated regulations discussed in this
report are summarized below. There are other consumer-protection laws and regulations,
but based on input from DSC, we limited our work to the following:

Electronic Fund Transfer Act (EFTA) – This Act establishes the basic rights,
liabilities, and responsibilities of consumers who use electronic fund transfer services and
of financial institutions that offer these services. The primary objective of the Act is the
protection of individual consumers engaging in electronic fund transfers. The FRB’s
Regulation E implements this statute.

Equal Credit Opportunity Act (ECOA) – ECOA prohibits creditor practices that
discriminate based on race, color, religion, national origin, sex, marital status, or age.
The Federal Reserve Board (FRB) issued Regulation B, which describes lending acts and
practices that are specifically prohibited, permitted, or required under ECOA.

Fair Housing Act (FHA) – The FHA prohibits discrimination based on race, color,
religion, national origin, sex, familial status, and handicap in residential real-estate-
related transactions, including making loans to buy, build, repair, or improve a dwelling.
Lenders may not discriminate in mortgage lending based on any of the prohibited factors.
The U.S. Department of Housing and Urban Development (HUD) has issued regulations
to implement the FHA; the FDIC has issued regulations at Part 338 of its Rules and
Regulations (12 Code of Federal Regulations (C.F.R.) Part 338) regarding advertising
and recordkeeping.

National Flood Insurance Act of 1968, National Flood – This Act established a
nationwide flood insurance program and requires the identification of flood-prone areas
and communication of such information. The bank regulators are to require lenders to
notify borrowers of special flood hazards. The financial regulators have issued
regulations that prohibit banks from providing or extending loans where the property
securing the loan is in an area with special flood hazards, unless flood insurance has been
obtained. The FDIC’s regulations are at (12 C.F.R. Part 339).

Home Mortgage Disclosure Act (HMDA) – HMDA was enacted to provide information
to the public and federal regulators regarding how depository institutions are fulfilling
their obligations towards community housing needs. FRB Regulation C requires
depository and certain for-profit, non-depository institutions (such as mortgage
companies and other lenders) to collect, report, and disclose data about originations and
purchases of home mortgage, home equity, and home improvement loans. Institutions
must also report data about applications that do not result in loan originations.

Gramm-Leach-Bliley Act of 1999 (Privacy) – According to title V, Privacy, of this Act,
financial institutions are required to: ensure the security and confidentiality of customer
information; protect against any anticipated threats or hazards to the security or integrity
of such information; and protect against unauthorized access to, or use of, customer



                                             21
                                                                           APPENDIX IV

information that could result in substantial harm or inconvenience to any consumer. This
Act provides the “privacy” protections covered in our report. The financial regulators
have issued implementing regulations. The FDIC’s regulations are located principally at
12 C.F.R. Part 332.

Real Estate Settlement Procedures Act (RESPA) – RESPA requires lenders, mortgage
brokers, or servicers of home loans to provide borrowers with pertinent and timely
disclosures regarding the nature and costs of the real estate settlement process. The Act
also protects borrowers against certain abusive practices, such as kickbacks, and places
limitations upon the use of escrow accounts. HUD promulgated Regulation X, which
implements RESPA. Also, the FRB’s Regulation Z addresses certain residential
mortgage and variable-rate transactions that are subject to RESPA.

Truth in Lending Act (TILA) – TILA requires meaningful disclosure of credit and
leasing terms so that consumers will be able to more readily compare terms in different
credit and lease transactions. TILA also protects the consumer against inaccurate and
unfair credit billing, credit card, and leasing transactions. FRB issued Regulation Z,
which implements TILA. The regulation requires accurate disclosure of true cost and
terms of credit. The regulation also regulates certain credit card practices, provides for
fair and timely resolution of credit billing disputes, and requires that a maximum interest
rate be stated in variable rate contracts secured by the consumer’s dwelling.

Truth in Savings Act (TISA) – The TISA requires the clear and uniform disclosure of
the rates of interest, which are payable on deposit accounts by depository institutions and
the fees that are assessable against deposit accounts, so that consumers can make a
meaningful comparison between the competing claims of depository institutions with
regard to deposit accounts. FRB’s Regulation DD implements this statute.




                                             22
Appendix V
     APPENDIX V




24
     APPENDIX V




25
                                                                                                                                               APPENDIX VI




                                           MANAGEMENT RESPONSE TO RECOMMENDATIONS


This table presents the management response on the recommendations in our report and the status of the recommendations as of the
date of report issuance.
                                                                                                                                                  Open
      Rec.                                                                               Expected          Monetary         Resolved:a             Or
     Number            Corrective Action: Taken or Planned/ Status                   Completion Date       Benefits         Yes or No            Closedb
       1            DSC intends to analyze the prevalence and scope of              September 30, 2007       $0                Yes                Open
                    repeatedly cited, significant violations over the next
                    year. The substance and level of risk to consumers
                    related to these violations will be used to evaluate
                    whether any changes in DSC policies are necessary.
         2          DSC believes the current policy statement in the FIAP           September 30, 2007         $0              Yes                Open
                    manual is clear but will reevaluate current FDIC and
                    FFIEC guidance to determine whether enhancements
                    or clarifications, if any, are needed.
         3          DSC intends to analyze the prevalence and scope of              September 30, 2007         $0              Yes                Open
                    repeatedly cited, significant violations over the next
                    year. The substance and level of risk to consumers
                    related to these violations will be used to evaluate
                    whether any changes in DSC performance goals are
                    necessary.
a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as
                   long as management provides an amount.

b
    Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.




                                                                               26
